No. 20A96

In the Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY, EX REL.
ATTORNEY GENERAL DANIEL CAMERON,
Applicants,
v.
ANDREW BESHEAR, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF KENTUCKY,
Respondent.
To the Honorable Brett M. Kavanaugh, Associate Justice of the United
States Supreme Court and Circuit Justice for the Sixth Circuit

CERTIFICATE OF COMPLIANCE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the
amicus on the accompanying Motion by The Becket Fund for Religious Liberty, with
Attached Proposed Amicus Curiae Brief in Support of Applicants, for Leave (1) to
File the Brief; and (2) to Do So without Ten Days’ Advance Notice to the Parties,
certify under Rule 33.1(h) of the Rules of this Court that the motion contains 408
words and the brief contains 1,921 words, excluding the parts that are exempted by
Rule 33.1(d).

Eric Rassbach

